Office of Material Loss Reviews
Report No. IDR-10-002


In-Depth Review of the Failure of
Columbia River Bank, The Dalles, Oregon




                                  September 2010
                                     Executive Summary

                                     In-Depth Review of the Failure of Columbia
                                     River Bank, The Dalles, Oregon
                                                                                     Report No. IDR-10-002
                                                                                           September 2010

Why We Did The Audit

The FDIC Office of Inspector General (OIG) contracted with KMPG LLP (KPMG) to conduct a material
loss review (MLR) of Columbia River Bank (CRB), The Dalles, Oregon.

On January 22, 2010, the Oregon Division of Finance and Corporate Securities (DFCS) closed CRB and
named the FDIC as receiver. On March 1, 2010, the FDIC notified the OIG that CRB’s total assets at
closing were $947.3 million and the estimated loss to the Deposit Insurance Fund (DIF) was
$161.1 million. As of August 6, 2010, the estimated loss to the DIF had decreased to $144.9 million.

On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and Consumer
Protection Act (Financial Reform Act). The Financial Reform Act amends section 38(k) of the Federal
Deposit Insurance Act (FDI Act) by increasing the MLR threshold from $25 million to $200 million for
losses that occur for the period January 1, 2010 through December 31, 2011. Further, the Financial
Reform Act calls for the OIG to perform in-depth reviews of failures when the associated losses are not
material but they involve unusual circumstances. At the time the Financial Reform Act was enacted,
KPMG’s fieldwork and a draft of this report were substantially complete. As a result, although the
estimated loss for CRB no longer met the threshold requiring an MLR, the OIG decided to have KPMG
complete the audit as an in-depth review and issue this report.

Consistent with both Acts, the objectives of this review were to (1) determine the causes of CRB’s failure
and the resulting loss to the DIF and (2) evaluate the FDIC’s supervision of CRB, including the FDIC’s
implementation of the PCA provisions of section 38 of the FDI Act.


Background

CRB was a state nonmember bank that became insured on June 6, 1977. The bank was one of the largest
community banks in the Northwest region with 22 branches serving 18 markets. CRB was a wholly-
owned subsidiary of Columbia Bancorp, a publicly-traded corporation headquartered in The Dalles,
Oregon. Since its inception, CRB pursued a traditional community bank business plan. However,
between 2004 and 2008, CRB management shifted its focus to commercial real estate (CRE), in particular
acquisition, development, and construction (ADC) residential projects in the Bend and Portland, Oregon
regions and Vancouver, Washington area. The bank historically relied on core deposits but to fund asset
growth became more dependent on brokered deposits.


Audit Results

Causes of Failure and Loss

CRB’s failure can be attributed to the Board’s and management’s growth strategy, which included
expansion into new geographic areas that led to high CRE and, in particular, ADC loan concentrations,
coupled with management’s and the Board’s failure to establish appropriate practices to mitigate the
corresponding concentration risk. Poor loan underwriting and weak credit administration practices


                                 To view the full report, go to www.fdicig.gov
   Executive Summary
                                      In-Depth Review of the Failure of Columbia
                                      River Bank, The Dalles, Oregon
                                                                                        Report No. IDR-10-002
                                                                                              September 2010

contributed to the precipitous deterioration in asset quality when the economy began to decline.
Management and the Board were slow to recognize the need to adjust the bank’s strategy in response to
the real estate downturn. Ultimately, the DFCS closed CRB after determining the bank was not viable
due to deteriorating asset quality, poor earnings, and inadequate capital.

The FDIC’s Supervision of CRB

The FDIC’s and the DFCS’ examinations and a visitation of CRB identified key risks, including credit
administration weaknesses, inadequate loan underwriting, and high CRE and ADC loan concentrations,
all of which eventually contributed to the bank’s failure. The examinations were conducted according to
the statutory schedule, and the FDIC and the DFCS pursued a formal supervisory action in 2009 as the
bank’s financial condition deteriorated. Additionally, the FDIC’s offsite review system flagged CRB for
review, but the timing was such that it did not materially impact the supervisory strategy.

Due to adverse changes in the real estate markets in 2007, and the combination of CRB’s risk
management weaknesses and a high ADC loan concentration, the financial condition of the bank had
significantly deteriorated by the August 2008 examination. In retrospect, the regulators may have
benefited from a more forward-looking approach to addressing the 2007 examination findings and overall
risk profile of CRB at that time. Doing so may have involved greater emphasis on management practices
in assigning the Management and Asset Quality ratings and closer monitoring of CRB following the
examination.

The DFCS did not disagree with our overall findings and conclusions but provided additional perspective
about information they considered when assigning CRB’s Asset Quality rating at the 2007 examination.
According to the DFCS, examiner analysis of key financial ratios and CRE and ADC concentrations
based on March 2007 data showed that CRB compared favorably to its peers, particularly at the regional
level. Further, DFCS officials noted that while the economy was showing signs of a slight decline during
the 2007 examination, the steep decline that ensued was not projected at that time.

With respect to PCA, based on the supervisory actions taken, the FDIC properly implemented applicable
PCA provisions of section 38 in a timely manner. CRB was unsuccessful in raising needed capital and
the bank was subsequently closed on January 22, 2010.


Management Response

On August 18, 2010, the Director, Division of Supervision and Consumer Protection (DSC), provided a
written response to the draft report. That response is provided in its entirety on page II-2 of this report.

DSC reiterated the OIG’s conclusions regarding the causes of CRB’s failure and the FDIC’s supervision
of the bank. With regard to the FDIC’s supervision of CRB, DSC summarized the supervisory history
described in the report. Further, DSC stated that strong supervisory attention is necessary for institutions
with high CRE and ADC concentrations, such as CRB, and has issued updated guidance reminding
examiners to take appropriate action when those risks are imprudently managed.




                                  To view the full report, go to www.fdicig.gov
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, VA 22226                                                   Office of Inspector General




DATE:                                     September 1, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  In-Depth Review of the Failure of Columbia River Bank,
                                          The Dalles, Oregon (Report No. IDR-10-002)


The subject final report is provided for your information and use. Please refer to the Executive
Summary, included in the report, for the overall audit results. The report did not contain
recommendations, thus a response was not required. However, the Division of Supervision and
Consumer Protection provided a written response on August 18, 2010. We incorporated the
response into the final report.

If you have questions concerning the report, please contact me at (703) 562-6352 or Mary
Carmichael, Audit Manager, at (703) 562-6360. We appreciate the courtesies extended to the
Office of Inspector General staff.

Attachment

cc: Stan Ivie, Regional Director, DSC
    Elaine D. Drapeau, Acting Chief, Office of Internal Control and Review, DSC
    James H. Angel, Jr., Director, OERM
                           Table of Contents

Part I

   Report by KPMG LLP                                       I-1
   In-Depth Review of the Failure of Columbia River Bank,
   The Dalles, Oregon

Part II

   OIG Evaluation of Management Response                    II-1

   Corporation Comments                                     II-2
      Part I

Report by KPMG LLP
         In-Depth Review of the Failure of
              Columbia River Bank
               The Dalles, Oregon




Prepared for the
Federal Deposit Insurance Corporation
Office of Inspector General
August 31, 2010




KPMG LLP
2001 M Street, NW
Washington, DC
                            Table of Contents


Executive Summary                                                           I-1
Background                                                                  I-3
Causes of Failure and Loss                                                  I-4
  Growth Strategy                                                           I-4
  Management and Board Oversight                                            I-8
  Loan Underwriting                                                         I-9
  Credit Administration Practices                                         I-10
The FDIC’s Supervision of CRB                                             I-12
  Supervisory History                                                     I-13
  Supervisory Responses to Risks Identified at CRB                        I-15
  Implementation of PCA                                                   I-19
Appendices                                                                I-22
  Objectives, Scope, and Methodology                                      I-22
  Glossary of Terms                                                       I-25
  Acronyms                                                                I-28

Tables
  1: Financial Condition of CRB                                             I-4
  2: CRB’s Examination History from 2006 to 2009                          I-13
  3: Summary of Capital Level Categories for CRB                          I-20

Figures
   1: Loan Growth at CRB                                                   I-6
   2: ADC Loans as a Percentage of Total Capital Compared to Peer Group    I-7
                            KPMG LLP
                            2001 M Street, NW
                            Washington, DC 20036-3389




August 31, 2010

Executive Summary

Stephen M. Beard
Assistant Inspector General for Material Loss Reviews
Federal Deposit Insurance Corporation
3501 North Fairfax Drive
Arlington, VA 22226

In-Depth Review Report of the Failure of Columbia River Bank, The Dalles, Oregon

Dear Mr. Beard:

This is our performance audit report on the results of the In-Depth Review of the Failure
of Columbia River Bank (CRB), The Dalles, Oregon. This assignment was initiated as a
Material Loss Review (MLR). However, on July 21, 2010, the President signed into law
the Dodd-Frank Wall Street Reform and Consumer Protection Act (Financial Reform Act),
which amends section 38(k) of the Federal Deposit Insurance Act (FDI Act). The
Financial Reform Act increases the MLR threshold from $25 million to $200 million for
losses that occur for the period January 1, 2010 through December 31, 2011. Further, the
Financial Reform Act calls for the Office of Inspector General (OIG) to perform in-depth
reviews of failures when the associated losses are not material but they involve unusual
circumstances. In-depth reviews are required to be performed and reported in a manner
consistent with that of an MLR.

At the time the Financial Reform Act was enacted, fieldwork and the draft report were
substantially complete. As a result, although the estimated loss for CRB is less than the
new MLR threshold, the OIG determined that we should complete the audit as an in-
depth review and issue this report.

Consistent with both Acts, the objectives of this performance audit were to (1) determine
the causes of CRB’s failure and the resulting loss to the Deposit Insurance Fund (DIF)
and (2) evaluate the FDIC’s supervision of CRB, including the FDIC’s implementation of
the Prompt Corrective Action (PCA) provisions of section 38 of the FDI Act.
Causes of Failure
CRB’s failure can be attributed to the Board’s and management’s growth strategy,
including expansion into new geographic areas that led to high Commercial Real Estate
(CRE) and, in particular, Acquisition, Development, and Construction (ADC) loan
concentrations. Further, management and the Board failed to establish appropriate
practices to mitigate the corresponding risk. Poor loan underwriting and weak credit
administration practices contributed to the precipitous deterioration in asset quality when


                                                                                         I-1
                             KPMG LLP is a Delaware limited liability partnership,
                             the U.S. member firm of KPMG International Cooperative
                             (“KPMG International”), a Swiss entity.
the economy began to decline. In addition, management and the Board were slow to
recognize the need to adjust the bank’s strategy in response to the real estate downturn.
Evaluation of Supervision
Through its supervisory efforts, the FDIC identified key risks in CRB’s management
practices and operations and brought these risks to the attention of the institution’s Board
and management team through regular discussions and correspondence, examination
reports, a visitation, and formal supervisory actions. Regulators conducted four onsite
examinations since May 2006 and one visitation in May 2009.

Due to adverse changes in the real estate markets in 2007, and the combination of CRB’s
risk management weaknesses and a high ADC loan concentration, the financial condition
of the bank had significantly deteriorated by the August 2008 examination. In retrospect,
the regulators may have benefited from a more forward-looking approach to addressing
the 2007 examination findings and overall risk profile of CRB at that time. Doing so may
have involved greater emphasis on management practices in assigning the Management
and Asset Quality ratings and closer monitoring of CRB following the examination.

Section 38 of the FDI Act, Prompt Corrective Action, establishes a framework of
mandatory and discretionary supervisory actions pertaining to all insured depository
institutions. Based on the supervisory actions taken with respect to CRB, the FDIC
properly implemented applicable PCA provisions of section 38.

We conducted our performance audit in accordance with Generally Accepted
Government Auditing Standards (GAGAS). These standards require that we plan and
perform the performance audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

The information included in this report was obtained during our fieldwork, which
occurred during the period from April through June 2010.

Very truly yours,




                                                                                         I-2
Background

On January 22, 2010, the Oregon Division of Finance and Corporate Securities (DFCS)
closed Columbia River Bank (CRB) and named the FDIC as receiver. On March 1, 2010,
the FDIC notified the Office of Inspector General (OIG) that CRB’s total assets at closing
were $947.3 million and the estimated loss to the Deposit Insurance Fund (DIF) was
$161.1 million. As of August 6, 2010, the estimated loss to the DIF had decreased to
$144.9 million.

The Dodd-Frank Wall Street Reform and Consumer Protection Act (Financial Reform Act)
amends section 38(k) of the Federal Deposit Insurance Act (FDI Act) by increasing the
Material Loss Review (MLR) threshold from $25 million to $200 million for losses that
occur for the period January 1, 2010 through December 31, 2011. In addition, the
Financial Reform Act calls for the OIG to perform in-depth reviews of failures when the
associated losses are not material but they involve unusual circumstances. In-depth
reviews are required to be performed and reported in a manner consistent with that of an
MLR. The OIG had initially retained KPMG LLP (KPMG) to perform an MLR of CRB.
At the time the Financial Reform Act was enacted, our fieldwork and draft report were
substantially completed. As a result, although the estimated loss for CRB no longer met
the threshold requiring an MLR, the OIG determined that KPMG should complete the
audit as an in-depth review and issue this report.1

CRB was a state nonmember bank that became insured on June 6, 1977. The bank was
one of the largest community banks in the northwest region with 22 branches serving
18 markets. CRB was a wholly-owned subsidiary of Columbia Bancorp, a publicly-
traded corporation headquartered in The Dalles, Oregon.

Since its inception, CRB had pursued a traditional community bank business plan.
However, between 2004 and 2008, CRB management shifted its focus to Commercial
Real Estate (CRE) loan growth, particularly in Acquisition, Development and
Construction (ADC) residential projects in the Bend and Portland, Oregon and
Vancouver, Washington regions. To fund its operations, the bank historically relied on
core deposits. However, from 2006 to 2008, asset growth became more dependent on
brokered deposits.

Table 1 provides details on CRB’s financial condition as of December 31, 2009, and for
the 3 preceding calendar years.




1
 In conducting this performance audit and preparing this report, KPMG relied primarily on information
provided by the FDIC OIG and the Division of Supervision and Consumer Protection (DSC). Appendix I,
Objectives, Scope, and Methodology, describes in greater detail the procedures used by KPMG.


                                                                                                   I-3
Table 1: Financial Condition of CRB
 Financial Data                   12/31/2009               12/31/2008      12/31/2007      12/31/2006
 Total Assets ($000s)              $955,112                $1,121,497      $1,042,412      $1,033,239
 Total Loans ($000s)               $678,326                 $863,442        $869,866        $804,477
 Total CRE loans ($000s)           $396,411                 $466,951        $527,045        $538,946
 Loan Growth                       -21.21%                   -3.22%          8.10%           18.56%
 Total Deposits ($000s)            $908,132                $1,004,548       $928,067        $862,465
 Brokered Deposits/Total
                                      6%                       22%             16%            10%
 Liabilities
 Tier 1 Leverage Capital Ratio       2.34%                    6.29%          9.26%           8.95%
 Total Risk-Based Capital Ratio      4.46%                   8.75%          11.23%          10.89%
 Asset Growth                      -14.84%                   7.59%           0.89%          22.88%
 PD+NA¹ Loans/Gross Loans           14.66%                  10.69%           1.17%           0.61%
 Return on Average Assets           -4.69%                   -2.34%          1.57%           1.96%
 Real Estate Loans/Total Assets     52.91%                  57.38%          63.04%          54.96%
 ADC Loans/Total Capital           479.63%                  303.84%         279.06%         225.17%
 Total CRE Loans/Total Capital    1,181.57%                 604.34%         508.02%         496.39%
    ¹ Past Due & Nonaccrual
Source: Uniform Bank Performance Report (UBPR) for CRB, December 31, 2009 and DSC’s Supervisory
History.

Causes of Failure and Loss

CRB’s failure can be attributed to the Board’s and management’s growth strategy,
including expansion into new geographic areas that led to high CRE and, in particular,
ADC loan concentrations, coupled with management’s and the Board’s failure to
establish appropriate practices to mitigate the corresponding risk. Poor loan underwriting
and weak credit administration practices contributed to the precipitous deterioration in
asset quality when the economy began to decline. Management and the Board were slow
to recognize the need to adjust the bank’s strategy in response to the real estate
downturn.2 Ultimately, the DFCS closed CRB after determining the bank was not viable
due to deteriorating asset quality, poor earnings, and inadequate capital.

Growth Strategy

Management’s risk appetite relating to growth in ADC lending contributed to the
deterioration of the bank’s financial condition. Management positioned the institution for
aggressive growth without appropriate standards and risk management practices for real
estate concentrations and funding strategies. Specifically, CRB pursued an aggressive
growth strategy starting in the 2004-2006 timeframe, which included expanding the
bank’s presence into the Vancouver, Washington area. In addition, at the same time, the
bank was continuing its expansion into the ADC residential lending business.
2
 Office of Federal Housing Enterprise Oversight Home Price Index for the metropolitan statistical area of
Bend, Oregon fell by approximately 36.6 percent from the fourth quarter of 2006 through the fourth quarter
of 2009.


                                                                                                      I-4
In June 2006, management submitted a transition plan to relocate Columbia Bancorp’s
headquarters to Vancouver, Washington for the Board’s approval. The plan stated that if
CRB was to continue as an independent community bank, it was a good time to consider
relocating Columbia Bancorp to Vancouver, Washington, as the company’s financial
performance was strong and markets in that area were growing. According to the plan,
the timeline included signing a lease for a building on June 30, 2006, recruiting and
hiring employees in July 2006, and having Executive Vice Presidents relocate to
Vancouver and report to work in August 2006.

Examiners noted during the 2007 examination that overhead expenses were high due to
added personnel, occupancy, and other costs associated with operating an extensive
branch system. For the first half of 2008, the non-interest expense ratio was 3.84 percent
versus the peer group3 average of 2.74 percent. Although the Board approved the
transition plan and incurred expenses associated with implementing the plan, Columbia
Bancorp’s move to Vancouver was not completed by the time the bank closed in January
2010.

The August 2008 Report of Examination (ROE) noted that to meet ADC loan demand, a
sales culture was promoted and lending specialists with significant industry contacts were
hired to meet loan growth expectations. Growth goals were met and the resulting loan
portfolio became concentrated in CRE loans targeted towards ADC. These goals, as well
as the sales culture, did not properly address risk and long-term performance.
Management’s risk appetite relating to growth in ADC lending and wholesale funding
had resulted in a high-risk institution that the management team had failed to supervise in
an adequate manner.

Figure 1 provides details on CRB’s loan growth as of December 2009, and for the
4 preceding calendar years.




3
 The peer group for CRB consisted of all insured commercial banks having assets between $1 billion and
$3 billion.


                                                                                                    I-5
Figure 1: Loan Growth at CRB
                                                 Real Estate Loans   Non-Real Estate Loans


                                $900

                                $800                                 $213        $220
   CRB Loan Growth (Millions)




                                $700                    $237

                                $600      $198                                               $173

                                $500

                                $400
                                                                     $657        $643
                                $300                    $568
                                          $480                                               $505
                                $200

                                $100

                                  $-
                                       Dec-2005     Dec-2006     Dec-2007     Dec-2008   Dec-2009
                                                               Period Ended

Source: UBPR for CRB as of December 31, 2009.

Examiners noted during the August 2008 examination that management had positioned
the institution for aggressive growth without appropriate consideration of the risks
associated with real estate concentrations and funding strategies. Examiners indicated
that over the previous 5 years the institution had approximately doubled in size and the
most recent strategic plan suggested an ongoing 10 percent annual growth rate.

Loan Concentrations

CRB’s concentrations in CRE and ADC lending were excessive compared to its peers
and to the thresholds established by regulatory guidelines. This lending made the bank
particularly vulnerable to a downturn in the real estate market, and was a major factor
contributing to the bank’s failure in 2010.

Interagency guidance titled Concentrations in Commercial Real Estate Lending, Sound
Risk Management Practices (Joint Guidance), issued on December 12, 2006, established
levels of concentrations that may warrant further supervisory analysis. The Joint
Guidance states as follows:

       “An institution that has experienced rapid growth in CRE lending, has notable
       exposure to a specific type of CRE, or is approaching or exceeds the following
       supervisory criteria may be identified for further supervisory analysis of the level and
       nature of its CRE concentration risk:

                               Total reported loans for construction, land development, and other land represent
                                100 percent or more of the institution’s total capital; or




                                                                                                               I-6
        Total commercial real estate loans as defined in this guidance represent
         300 percent or more of the institution’s total capital, and the outstanding balance
         of the institution’s commercial real estate portfolio has increased by 50 percent or
         more during the prior 36 months.”

At the March 2006 examination, the bank’s concentration in ADC lending was
$256 million, or 212 percent of Total Capital. According to the October 2009
examination, CRB’s ADC concentration had exceeded 275 percent of Total Capital since
March 31, 2007.

Figure 2 represents ADC concentration levels from 2005 to 2008 for CRB compared to
its peer group.

Figure 2: ADC Loans as a Percentage of Total Capital Compared to Peer Group

                               CRB       Peer Group
 350%

 300%

 250%

 200%

 150%

 100%

   50%

    0%
            Dec-2005        Dec-2006        Dec-2007       Dec-2008
                                 Period Ended

Source: UBPR for CRB.
The ADC concentration level for 2009 was excluded as the percentage was inflated due to diminishing
capital.

The August 2008 examination revealed that the rapid deterioration in the bank’s asset
quality was due to the level of residential ADC exposure that the bank had booked over
the last several years. ADC loans represented 276 percent and 399 percent of Total
Capital as of June 2008 and June 2009, respectively. In addition, CRE loans represented
523 percent and 843 percent of Total Capital as of June 2008 and June 2009,
respectively, which exceeded the thresholds regulators established in the December 2006
Joint Guidance to identify institutions that may warrant further supervisory attention.

The October 2009 examination noted that the bank had a high concentration in ADC
lending and speculative residential construction loans, particularly in the Central Oregon
and metropolitan Portland, Oregon markets (including Vancouver, Washington). This
high level of concentration exposed the bank to significant risk as the real estate market
conditions continued to deteriorate. The risk exposure continued despite a large number
of charge-offs and the transferring of assets to Other Real Estate Owned (OREO). In that


                                                                                                      I-7
regard, the bank’s aggregate CRE concentration only dropped from 640 percent to
605 percent of Total Capital after the charge-offs and asset transfers.

Wholesale Funding. Although CRB’s increased dependence on brokered deposits was
not a primary contributor to the failure of the bank, it served to enable the aggressive loan
growth pursued by management. Specifically, between 2006 and 2008, the growth in
lower-cost retail deposits lagged the loan growth rate. As a result, management had to
increasingly rely on brokered deposits, certificates of deposit (CD), and advances from
the Federal Home Loan Bank (FHLB) to make up the funding shortfall. Most
significantly, brokered deposits represented 23.42 percent of total deposits as of
December 31, 2008, compared to 10.54 percent 2 years earlier.

Management and Board Oversight

Inadequate oversight by CRB’s Board and management was also a significant factor in
the bank’s failure. CRB’s management and Board failed to properly identify, measure,
monitor, control, and mitigate growing risks associated with the highly concentrated CRE
and ADC loan portfolio. In addition, management turnover occurred during a critical
period, affecting management’s response to the real estate downturn in 2007.

Identify, Measure, Monitor, Control, and Mitigate Credit Risks

CRB’s management was considered satisfactory during the May 2006 examination.
However, examiners encouraged management to continue its efforts to develop a uniform
program of cash flow analysis and an effective loan file review process. In response to
the examination findings, senior officials at the bank stated in a letter dated
August 18, 2006 that they would continue to work with their staff and the Audit
Department to enhance their internal process of monitoring and controlling CRE
concentrations. In addition, the letter stated that the Board would continue to establish
risk thresholds on concentrations for control purposes.

Examiners considered procedures for monitoring loan concentrations to be satisfactory
during the July 2007 examination. Loans were monitored by type, branch, and
geographic regions and it was noted that management reports provided sufficient
information for the monitoring of concentrations within the various segments of the loan
portfolio. However, examiners determined that management had not yet developed an
effective process for monitoring the bank’s exposure to ADC projects, particularly
speculative construction loans.4

During the August 2008 examination, examiners noted that despite the deterioration in
relevant markets, which should have been evident since at least early 2007, there was
little transactional evidence that management began to take meaningful steps to curtail
the ADC exposure until March 2008. In fact, concentration risk limits for residential
ADC lending were increased in April 2007. Examiners noted that management’s inability

4
  Speculative construction loans are loans that are not accompanied by meaningful pre-sale, pre-lease, or
take-out commitments.


                                                                                                        I-8
to respond in a timely and effective manner to deteriorating economic conditions was one
of the causes for the bank’s critical state at the time.

In an attempt to curtail the effects of the real estate downturn, management issued a
moratorium on ADC lending in a series of communications to the bank’s loan officers
beginning in July 2008. Additionally, the Board lowered the internal policy limits for
various CRE segments in May 2009 in an effort to lower the loan portfolio risk level.
However, these positive measures proved to be too late to diminish the effects of the real
estate downturn.

Management Turnover

The August 2008 ROE noted that a key factor affecting the delay in responding to the
real estate downturn was the lack of executive management focus, as key senior official
positions were in states of transition because of the plan to move Columbia Bancorp’s
headquarters to Vancouver. For example, during this period, the Chief Accounting
Officer served as de facto Chief Financial Officer, in addition to facilitating and
overseeing the transition to Vancouver. Examiners noted a lack of executive attention to
compel the Board to shift the bank’s focus from a production mode to protecting the
bank’s assets as the real estate markets started to deteriorate in 2007.

The August 2008 ROE also noted that the Chief Credit Officer (CCO) resigned in
September 2007 to seek employment elsewhere. The Board hired a replacement in March
of 2008. Despite the relatively short period during which the position was not filled, the
impact of the vacancy was significant because the real estate markets were experiencing
unprecedented property value declines and CRB did not have a CCO in place to manage
the growing risks.

Loan Underwriting

Weak loan underwriting was a frequent concern noted by examiners. CRB’s failure to
correct weaknesses in loan underwriting, coupled with a high credit risk loan portfolio,
were significant factors in the bank’s failure. At the July 2007 examination, examiners
noted that the volume of technical exceptions had increased from prior examinations,
demonstrating the need to strengthen loan underwriting practices. Matters that needed
attention included ensuring that a consistent cash flow analysis was used to evaluate a
borrower’s ability to service debt.

During the August 2008 FDIC examination, examiners noted that multiple aspects of
transactional underwriting were weak and contributed to the heightened risk profile of the
loan portfolio. Key underwriting deficiencies on more complex transactions typically
included CRB’s failure to:

      ascertain the extent of borrower and guarantor contingent liability obligations;
      assess cash flow on a global rather than project-specific basis; and




                                                                                           I-9
       consider the observations, conclusions, and concerns conveyed in many real estate
        appraisal reviews.

According to the August 2008 examination, although CRB had adequate loan policies,
these policies were not implemented at a transactional level. Specifically, approval
practices did not accurately reflect risk and underwriting standards were set, but not
enforced.

Compliance with Laws and Regulations

The August 2008 ROE stated that transactional underwriting and portfolio-level
management of the ADC portfolio were in contravention of various aspects of Subsection
C, Loan Documents, and Subsection D, Credit Underwriting, of Appendix A,
Interagency Guidelines Establishing Standards for Safety and Soundness, to Part 364 of
the FDIC’s Rules and Regulations.5 According to the ROE, those deficiencies, especially
those of a portfolio nature, magnified the negative financial ramifications stemming from
continued residential real estate market deterioration. Management systematically failed
to recognize changing market conditions impacting the institution’s ADC concentration
in a timely manner. As a result, management did not bolster transactional underwriting
criteria or reduce aggregate ADC risk tolerances.

Credit Administration Practices

Credit administration weaknesses were a significant factor in the bank’s failure.
Insufficient loan reviews, an inappropriate Allowance for Loan and Lease Losses (ALLL)
methodology that did not adequately reflect the risk of the portfolio, and inadequate real
estate appraisal practices all contributed to the failure of the bank.

Loan Reviews

During the May 2006 examination, management was encouraged by examiners to
continue its efforts to develop a uniform program of cash flow analysis and an effective
loan file review process. In September 2007, bank personnel conducted an independent
loan review, pursuant to a scope selected by the bank’s external accountant, which
included a loan penetration of less than 9 percent of the portfolio. This scope was deemed
insufficient by examiners. Furthermore, examiners also indicated that the timeframe
between this independent loan review and the prior one (in 2005) was unacceptably long.

The August 2008 examination noted that, in early 2008, management initiated an
unscheduled, in-depth, ADC-focused credit review. However, the review was conducted
too late in the credit cycle for the results to provide any value beyond simply identifying
heightened transactional credit risk, which should have already been evident. Examiners

5
 Section 39 of the FDI Act requires the FDIC to establish safety and soundness standards. Section
364.101(a) of the FDIC Rules and Regulations implements that provision by establishing interagency
guidelines for safety and soundness, as set forth in Appendix A to Part 364.



                                                                                                     I-10
also noted that management must do a better job of timely and accurate risk identification
as they noted numerous situations where internal credit grades were too lenient given the
risk profile of the loan relationship. Accurate and timely risk recognition would have
required both increasing loan officer accountability and establishing stronger loan review
processes.

In August 2008, the FDIC prepared a memorandum detailing the loan review process at
CRB, which stated that the frequency and scope of the loan review process were
considered inadequate given the nature and complexity of the bank’s lending activities.

The October 2009 ROE noted that credit grading practices were not effective, as
evidenced by the large number of loans that were downgraded from the bank’s internal
grade or where additional impairment was identified during the examination. The credit
review process had not been effective in identifying deterioration in the loan portfolio.
A third party was commissioned to complete loan reviews at six branches in 2009;
however, in all cases, the review focused only on “Pass” credits.6 A comprehensive
review of the loan portfolio and the accuracy of grading practices had not been completed
since the prior examination.

ALLL Methodology

Examiners noted during the May 2006 examination that the ALLL, at 1.30 percent of
total loans as of March 31, 2006, was adequate based upon the credit risk in the portfolio
at the time. However, examiners noted that management should enhance the
methodology used to determine the adequacy of the ALLL by: increasing the current
stratification of “Pass” loan categories (e.g., “commercial” and “real estate”) to better
reflect individual sector risks; analyzing the “Pass” category composition by credit grade
(i.e., assigning higher weights for lower quality loans); and improving the reasoning for
qualitative reserve adjustments.

During the July 2007 State examination, examiners noted that the ALLL amounted to
1.20 percent of total loans as of March 31, 2007, and considered the ALLL to be
appropriate. Examiners noted that the methodology used to determine the adequacy of the
ALLL was generally satisfactory; however, the impairment analysis of loans should be
expanded to include all large credits internally graded “Substandard” or worse.7

Examiners noted during the August 2008 examination that management’s reserve
methodology was generally reasonable and that the $25 million provision required during
the quarter was largely prompted by newly received reappraisals on problem ADC loans.
However, examiners did note that the reserve methodology should be revised and
management’s implementation of associated accounting pronouncements should be

6
 Credits not covered by Special Mention, Substandard, Doubtful, or Loss are “Pass” Credits.
7
 Substandard loans are inadequately protected by the current sound worth and paying capacity of the
obligor or of the collateral pledged, if any. Loans classified as Substandard must have a well-defined
weakness or weaknesses that jeopardize the liquidation of the debt. They are characterized by the distinct
possibility that the bank will sustain some loss if the deficiencies are not corrected.


                                                                                                       I-11
modified. Specific recommendations included re-evaluating Financial Accounting
Standard (FAS) 5 loss percentage assumptions given 2008 results;8 increasing the
granularity of FAS 5 risk categories, especially for real estate-secured loans; expanding
the transparency of the FAS 114 calculation; and promptly charging off identified
impairment on collateral-dependent loans that were evaluated under FAS 114.

The October 2009 ROE noted that management had not implemented the
recommendation provided at the previous examination for increasing the granularity of
the FAS 5 analysis applicable to real estate-secured loans. Specifically, all real estate loan
groups were still internally analyzed as one homogeneous group with no recognition
given to the different risk characteristics applicable to various loan types. Most
significantly, the FAS 5 analysis did not take into consideration the significant charge-off
rate experienced in 2009.

Real Estate Appraisals

The July 2007 State examination noted several apparent violations of Part 323,
Appraisals, of the FDIC Rules and Regulations. Part 323 requires that appraisals meet
certain minimum requirements. Violations included a lack of recent appraisals to support
current market values and loan files that lacked appraisals to support the values cited in
the applications for loan approval.

During the August 2008 examination, examiners noted that CRB had renewed, modified,
and extended loans to borrowers with maturing credits without obtaining updated
appraisals. Had updated appraisals been ordered on all renewals, management would
have seen the insufficiency of collateral being held by the bank and could have acted
more prudently in extending additional credit.

The FDIC’s Supervision of CRB

The FDIC’s and the DFCS’s examinations and visitation of CRB identified key risks
including credit administration weaknesses, inadequate loan underwriting, and a high
CRE and ADC loan concentration, all of which eventually contributed to the bank’s
failure. The examinations were conducted according to the statutory schedule and the
FDIC and the DFCS pursued a formal supervisory action in 2009 as the bank’s financial
condition deteriorated. Additionally, the FDIC’s offsite review monitoring system
flagged CRB for review but the timing was such that it did not impact the supervisory
strategy.

Due to adverse changes in the real estate markets in 2007, and the combination of CRB’s
risk management weaknesses and a high ADC loan concentration, the financial condition
of the bank had significantly deteriorated by the August 2008 examination. In retrospect,

8
  Accounting Standard Codification (ASC) Subtopics 450-20 (formerly FAS 5) and ASC 310-10-35
(formerly FAS 114) provide accounting guidance for loss contingencies on a pool basis and the impairment
of loans on an individual basis, respectively.



                                                                                                   I-12
the regulators may have benefited from a more forward-looking approach to addressing
the 2007 examination findings and overall risk profile of CRB at that time. Doing so may
have involved greater emphasis on management practices in assigning the Management
and Asset Quality ratings and closer monitoring of CRB following the examination.

Supervisory History

Since 2006, the FDIC and the DFCS conducted one visitation and four safety and
soundness examinations. As a result of the deteriorated financial condition at the time of
the August 2008 examination, CRB stipulated to a Cease and Desist Order (C&D), which
became effective on February 9, 2009. The C&D required, among other things, that the
Board take a more active role in the affairs of the bank, the bank have and retain qualified
management, and the bank increase and maintain a Tier 1 Capital level equal to or above
10 percent within 90 days of the issuance of the C&D. Table 2 summarizes CRB’s
examination history and supervisory actions from 2006 through 2009.9

Table 2: CRB’s Examination History from 2006 to 2009
    Examination    Examination      On-Site Supervisory Supervisory Ratings               Informal or Formal
     Start Date     as of Date             Effort            (UFIRS)*                       Action** taken
     05/30/06         03/31/06        FDIC Examination             222122/2                    None
     07/09/07         03/31/07        State Examination            222122/2                    None
     08/18/08         06/30/08        FDIC Examination             444444/4                    C&D
     05/04/09         03/31/09         Joint Visitation         454***544***/5             PCA Notification
     10/05/09         09/30/09        Joint Examination            555544/5                PCA Notification
Source: Supervisory History, Reports of Examination, and Report of Visitation.
*Financial institution regulators and examiners use the Uniform Financial Institutions Rating System (UFIRS) to
evaluate a bank’s performance.
**Informal supervisory actions often take the form of Bank Board Resolutions or MOUs. Formal enforcement actions
often take the form of PCA directives or C&Ds, but under severe circumstances can also take the form of insurance
termination proceedings.
***The visitation scope was not sufficient to assign a rating. Therefore, the ratings assigned at the August 2008
examination for Management and Sensitivity to Market Risk remained the same.


In addition to the examinations and visitations, the FDIC met with CRB management in
June 2007 to discuss the CRE concentrations at the bank. There were no changes made to
FDIC’s supervisory plan as a result of this discussion; however, the FDIC noted the
supervisory plan should be reassessed based upon the findings of the July 2007 State
examination.

Offsite Review

The FDIC’s offsite review program did not identify emerging supervisory concerns or
potential problems for CRB until September 2008, at which time the FDIC was
conducting a safety and soundness examination. At the conclusion of the examination,
the bank was downgraded to a composite “4” rating. By not identifying potential
problems prior to September 2008, the effectiveness of the offsite review program was

9
 On February 3, 2009, a Memorandum of Understanding (MOU) was agreed to between the Federal
Reserve Bank of San Francisco, DFCS, and Columbia Bancorp.


                                                                                                             I-13
limited in identifying risks that would result in a change to the FDIC’s supervisory
strategy.

The offsite review program is designed to identify emerging supervisory concerns and
potential problems so that supervisory strategies can be adjusted appropriately. Offsite
reviews are performed quarterly for each bank that appears on the Offsite Review List
(ORL). Regional management is responsible for implementing procedures to ensure that
offsite review findings are factored into examination schedules and other supervisory
activities. Offsite reviews must be completed and approved 3½ months after each Report
of Condition and Income (Call Report) date. This generally provides 45 days to complete
the offsite reviews once Call Report data is finalized.

The system-generated ORL includes only institutions rated “1” and “2” that are either:
    Identified by the Statistical CAMELS Offsite Rating (SCOR)10 system as having
       a 35 percent or higher probability of downgrade to “3” or worse, or
    Identified in the Growth Monitoring System (GMS)11 as having a growth
       percentile of 98 or 99.

CRB did not appear on the system-generated ORL because it did not meet the criteria
prior to 2008. An offsite review was completed September 22, 2008 using data as of
June 30, 2008, as a result of the Real Estate Stress Test (REST)12, SCOR, and SCORLag
risk flags being triggered. At this time, a full-scope FDIC examination had already begun
and found the bank’s condition to be unsatisfactory.

The September 2008 offsite review analysis memorandum noted the overall risk profile
of the institution had increased significantly due to deterioration in the ADC loan
portfolio. Asset quality was deficient due to the high level of problem assets, the velocity
of deterioration in the loan portfolio, and the potential for further deterioration.
Management’s performance was noted as unsatisfactory due to its (1) aggressive risk
appetite relating to ADC lending, (2) slow reaction to the economic downturn, (3) failure
to implement several prior examination recommendations, (4) failure to provide an
accurate loan review process, and (5) lack of formal liquidity contingency planning.

An additional offsite review was triggered in September 2009 by a REST risk flag. This
review was manually added to the ORL as the bank had already been downgraded to a
composite “4” rating. Per the offsite review, the bank’s financial condition had
deteriorated primarily due to an excessive concentration in real estate-related loans in a
severely declining market. As of June 30, 2009, the bank’s Tier 1 Capital ratio declined
to 4.16 percent and on August 26, 2009, the bank was notified of its PCA category of
Undercapitalized. The bank was projected to fail in the first quarter of 2010.

10
   SCOR is a financial model that uses statistical techniques, offsite data, and historical examination results
to measure the likelihood that an institution will receive a CAMELS downgrade at the next examination.
11
   GMS is an offsite rating tool that identifies institutions experiencing rapid growth and/or having a
funding structure highly dependent on non-core funding sources.
12
   REST attempts to simulate what would happen to banks today if they encountered a real estate crisis
similar to that of New England in the 1990s. Scores are considered high when 3.5 or higher.


                                                                                                          I-14
Supervisory Responses to Risks Identified at CRB

Through its supervisory efforts, the FDIC and the DFCS identified and documented key
risks at the bank and provided recommendations to management as described in the
Causes of Failure and Loss section of this report. However, by the time the FDIC and the
DFCS instituted the C&D in February 2009, the viability of the institution was seriously
in question as a consequence of the high level of classified loans and eroding capital
protection.

May 2006 FDIC Examination

At the 2006 examination, Capital was rated satisfactory and assigned a “2” component
rating. Examiners also found Asset Quality to be satisfactory with a manageable level of
adversely classified assets, totaling 23.23 percent of Tier 1 Capital plus the ALLL, and a
modest level of past due and nonaccrual credits. Additionally, the examination noted that
the CRE concentration level had increased moderately from 542 percent of Total Capital
as of March 31, 2005 to 574 percent as of March 31, 2006. Although examiners noted
that the CRE exposure level remained elevated, improved risk management practices
were implemented as recommended at the previous joint examination in June 2005. At
that time, CRB’s CRE and ADC concentrations were higher in relation to its peers.

Asset Quality was considered adequate as evidenced by the manageable level of
classified loans. Examiners commented that earnings continued to improve and were
strong in relation to the risk profile of the bank. Additionally, it was noted that the Net
Interest Margin (NIM) had increased from 6.08 percent as of December 31, 2005 to
6.41 percent as of March 31, 2006.

Examiners encouraged management to continue its efforts to develop a uniform program
for cash flow analysis and an effective loan review process. They also suggested that
management enhance the methodology used to determine the adequacy of the ALLL by
increasing the current stratification of “Pass” loan categories. Examiners also stated that
management should reassess the appropriateness of all assumptions used in its risk
analytics model. Independent validation of the model should also be completed to ensure,
at minimum, the reasonableness of bank-specific assumptions.

Overall, CRB was found to be operating in a satisfactory manner and its financial
condition was sound. Examiners assigned the institution a CAMELS composite rating of
“2”. As a result, examination of the bank continued on a regular schedule.

July 2007 State Examination

During the July 2007 State examination, Capital was considered satisfactory. However,
the Tier 1 Leverage Capital ratio was at 8.99 percent, down from 9.13 percent at the
previous examination, and CRB’s risk-based capital ratios were in the lowest 25 percent
among its peer group.




                                                                                          I-15
Examiners considered the institution’s procedures for monitoring loan concentrations to
be generally satisfactory. Loans were monitored by type, branch, and geographic regions
and it was noted that management reports provided sufficient information for the
monitoring of concentrations within the various segments of the loan portfolio. However,
examiners determined that management had not yet developed an effective process for
monitoring the bank’s exposure to ADC projects, particularly speculative construction
loans. DFCS officials stated that the Joint Guidance was considered by examiners in
making this comment, but the ROE did not make specific reference to the guidance.

Examiners also determined Asset Quality to be satisfactory. Adversely classified assets
had increased from $19.2 million at the prior examination to $25.2 million and the
Adversely Classified Items Coverage Ratio13 had increased from 23.23 percent to
26.03 percent during the same period. Further, as of June 30, 2007, ADC loans totaled
$361 million, or 365 percent of Total Capital. This level of ADC concentration was well
above the thresholds used to identify institutions that may warrant greater supervisory
analysis by the Joint Guidance.

Examiners noted that there were weaknesses in CRB’s credit administration. The
methodology used to determine the adequacy of the ALLL was generally satisfactory;
however, the impairment analysis of loans needed to be expanded to include all large
credits internally graded “Substandard” or worse. The loan policy and procedures were
satisfactory, but the implementation of the policy was viewed as inconsistent. Examiners
also noted deficiencies in file documentation and ongoing monitoring practices that were
evidenced by the high volume of technical exceptions, as well as the number of loans
cited for apparent violation of laws and regulations. Examiners found four loans in
apparent violation of Section 323.4.14 The examination report stated that the appraisals
for these four loans were either outdated or were not present prior to funding. Examiners
recommended that management ensure that required documentation is obtained in a
timely manner and that they improve the policy and procedures for monitoring
construction loans and documenting construction draws.

Examiners commented that earnings continued to be strong, although CRB had a
decrease in its Return on Average Assets (ROAA) for the first quarter of 2007 compared
to year end 2006, from 1.96 percent to 1.59 percent, respectively. The decrease was
related to a narrowing NIM and an increased provision expense due to a partial charge-
off during the first quarter of 2007. Examiners also noted that CRB’s expenses remained
high due to increased personnel, occupancy, and other costs associated with increasing its
branch system.

Examiners noted CRB’s liquidity risk profile had tightened since the previous
examination. Loan growth had outpaced deposit growth causing the bank to rely on
brokered deposits, CDs, and advances from FHLB. Brokered deposits represented


13
   The “Adversely Classified Items Coverage Ratio” is the ratio of total adversely classified items to Tier 1
Capital plus the ALLL (before adjustments for Loss classifications).
14
   Section 323.4 requires that appraisals meet certain minimum requirements.


                                                                                                        I-16
14.2 percent of total deposits as of March 31, 2007, compared to 5.0 percent as of
March 31, 2006.

Although CRB’s financial condition was starting to show some symptoms of stress as
evidenced by the growth in classified assets, lower ROAA, and tightened liquidity, the
examination resulted in the same CAMELS ratings as the previous FDIC examination.
As a consequence, examination of the bank continued on a regular schedule and the next
onsite supervisory activity occurred in August 2008.

In retrospect, considering: (1) CRB’s ADC concentration levels; (2) identification of
weak credit administration practices; (3) signs of financial deterioration; and (4) the start
of deterioration in the local real estate markets,15 the FDIC and the DFCS should have
placed greater emphasis on management practices in assigning the Asset Quality rating.
According to the Risk Management Manual of Examination Policies (Examination
Manual), a “2” Asset Quality component rating indicates that the level and severity of
issues warrant a limited level of supervisory attention. A “3” rating generally indicates
that an elevated level of supervisory attention is required. Although the level of
classified loans (26.03 percent) at the time appeared manageable, heightened supervisory
attention appears to have been warranted.

DFCS did not disagree with our overall findings and conclusions, but provided additional
perspective about information its examiners considered when assigning CRB’s Asset
Quality rating at the 2007 examination. According to the DFCS, examiner analysis of key
financial ratios based on March 2007 data showed that CRB compared favorably to peers,
particularly at a regional level. In addition, while CRB’s CRE and ADC concentrations
were higher than peers at a national level, the concentration levels were generally in line
with other banks in the region. Further, DFCS officials noted that while the economy was
showing signs of a slight decline during the examination, the steep decline that ensued
was not projected at that time.

August 2008 FDIC Examination

By August 2008, the financial condition of the bank had significantly deteriorated as the
level of adversely classified loans had grown to 135 percent of Tier 1 Capital plus the
ALLL. Examiners noted that CRE loans represented 423 percent of Total Capital and the
ADC concentration was at 326 percent of Total Capital. Additionally, examiners noted
that 81 percent of the classified assets were within the ADC loan portfolio. Capital was
deemed unsatisfactory given the bank’s elevated risk profile.

Examiners noted that an additional provision expense of at least $25 million was
necessary during the third quarter of 2008 in order to maintain the ALLL at an
appropriate level. Subsequent to the charge-off of loans adversely classified, the ALLL

15
   An FDIC Relationship Management memorandum dated June 2007 indicated that risk was increasing as
the residential real estate markets in Deschutes County (Bend/Redmond) had slowed considerably in 2007.
A senior executive at the bank considered the market in Bend to be both overpriced and overbuilt and
stated that a number of builders in the bank’s portfolio were already experiencing problems.


                                                                                                   I-17
was projected to represent approximately 2.5 percent of total loans at the end of the third
quarter. It was noted that the $25 million provision expense was related to the
reappraisals on problem ADC loans.

Examiners also noted that approval processes on loans did not adequately reflect risk,
underwriting standards were set but not enforced, renewal and extension practices
elevated risk without adequate mitigating factors, the loan review process did not result in
adequate risk identification, and the credit grading system was not effective.

The ROE noted that management’s decision to allow CRB to assume a high ADC
concentration level contributed to the asset quality deterioration at the bank. The negative
implication of this strategic decision was compounded by management’s failure to
respond in a timely and effective manner to the deteriorating market conditions. The ROE
noted that management should reduce CRB’s residential ADC exposure to improve asset
quality.

Supervisory Actions. As a result of this examination, CRB’s CAMELS composite rating
was downgraded from a “2” to a “4”. The bank stipulated to a C&D on February 3, 2009
to address examiners’ concerns, including the need for additional capital. Although this
action was appropriate, by the time the C&D became effective on February 9, 2009, the
viability of the bank was in question absent an injection of capital from external sources.

May 2009 Joint Visitation

In May 2009, the FDIC and the DFCS conducted a limited onsite visitation for the
purpose of evaluating the financial condition of the bank and assessing management’s
efforts to comply with the C&D. Examiners found that the condition of the bank had
continued to deteriorate. Capital was rated deficient and assigned a “4” component rating.
The visitation report noted that the Tier 1 Leverage and Total Risk-Based Capital Ratios
were expected to drop to 5.78 percent and 7.88 percent, respectively, as of June 30, 2009.
The visitation report also noted that the bank would be Undercapitalized for PCA
purposes.

Examiners indicated that asset quality had deteriorated to the point of being critically
deficient and represented an imminent threat to the bank’s viability. Adversely classified
items had grown from $25.2 million at the July 2007 examination to $150.4 million at the
August 2008 examination, and totaled $177.7 million as of May 2009, based largely upon
internal risk ratings. Adversely classified assets represented an excessive 17 percent of
total assets and approximately 200 percent of Tier 1 Capital plus the ALLL. Examiners
noted that further asset quality deterioration was likely based upon the volume of loans
that were 30 to 89 days past due, the volume of loans internally rated “Watch” and
“Special Mention”, and the extremely unfavorable economic climate in a majority of the
bank’s geographic footprint. Furthermore, the risk of additional deterioration in assets
already classified “Substandard” was extremely high as many were collateralized by
failed or severely distressed residential ADC projects in Central Oregon or overbuilt
submarkets in Portland and Vancouver.



                                                                                        I-18
Examiners determined that credit oversight and problem asset management
responsibilities had been more effectively segregated, internal risk identification practices
had improved based upon the limited transactional testing completed at the visitation, and
special asset management staffing levels had been bolstered by the addition of
experienced personnel since the prior examination. However, examiners noted that
overall portfolio performance was subject to external market influences outside of
management’s control and management’s actions had not yet stemmed the tide of asset
quality deterioration. With regard to the bank’s compliance with the C&D provisions,
examiners indicated that management was attempting to stabilize the bank and to satisfy
the requirements of the Order. However, those efforts had not translated into an overall
reduction in risk.

October 2009 Joint Examination

At the 2009 joint examination, Capital was rated critically deficient and assigned a
“5” component rating. Additionally, it was noted that CRB’s ability to remain viable was
severely threatened. Capital levels had dropped by 80 percent from $86 million as of
September 30, 2008, to $17 million as of September 30, 2009. Projections showed that
capital growth through retained earnings was not an option due to the large level of non-
performing assets. Adversely classified items totaled $175.2 million and represented
414.2 percent of Tier 1 Capital plus the ALLL. As of September 30, 2009, CRB reported
an operating loss of $46 million, while the ROAA for 2009 was negative 5.80 percent.

Examiners determined that the bank’s asset quality problems were the result of weak risk
management practices, which included a high concentration in ADC loans, poor
underwriting decisions, an inadequate loan review process, and a credit grading system
that failed to accurately identify adverse trends in individual credits. All of these factors
were exacerbated by the economic downturn and the sharp decline in real estate values.

As of October 2009, the bank’s Board and senior management had been able to comply
with the majority of the 14 provisions included in the C&D. However, efforts to raise
new capital had been unsuccessful, leaving the viability of the bank questionable for the
future months. As the bank was not able to raise the additional capital necessary, the
DFCS closed CRB on January 22, 2010.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325 of the FDIC’s Rules and Regulations
implements PCA requirements by establishing a framework for taking prompt corrective
action against insured state-charted nonmember banks that are not adequately capitalized.
The FDIC is required to closely monitor the institution’s condition and compliance with
its capital restoration plan, mandatory restrictions defined under section 38(e), and
discretionary safeguards imposed by the FDIC (if any) to determine if the purposes of
PCA are being achieved. Based on the supervisory actions taken, the FDIC properly
implemented applicable PCA provisions of section 38.



                                                                                         I-19
Table 3 illustrates CRB’s capital level categories for each examination date. The bank
was considered Well Capitalized for PCA purposes until the August 2008 examination.

Table 3: Summary of Capital Level Categories for CRB
                     Well
 Key Capital      Capitalized
 Ratios (%)       Thresholds*           Oct-09          Aug-08          Jul-07        May-06
 Total Risk-
    Based
                       10%              3.40%            7.93%         10.60%         11.12%
   Capital
    Ratio
 Tier 1 Risk-
    Based
                       6%               2.13%            6.66%          9.51%          9.93%
   Capital
    Ratio
    Tier 1
  Leverage             5%               1.59%            6.45%          8.99%          9.13%
    Ratio
                                       Critically
                                                         Under-      Well             Well
    Capital                             Under-
                                                       capitalized Capitalized      Capitalized
   Category                          capitalized**
Source: ROEs for Columbia River Bank.
* Minimum capital requirements to be considered Well Capitalized for PCA purposes.
** Due to an additional loan loss provision of $16 million identified during the October 2009 examination,
CRB’s capital levels dropped from Significantly Capitalized to Critically Undercapitalized.

The August 2008 examination determined that the ALLL required an additional provision
of $25 million, resulting in the Total Risk-Based Capital ratio dropping from
10.50 percent as of June 2008 to 7.93 percent as of August 2008. As a result, the bank
was Undercapitalized for PCA purposes. Management was notified that due to the PCA
downgrade, the bank could no longer renew or obtain new brokered funds. Anticipated
capital levels did not support the overall risk profile and external capital was needed to
recapitalize the bank.

The C&D required that within 90 days from the February 9, 2009 effective date, the bank
should maintain the Tier 1 Capital ratio at a minimum level of 10 percent as well as
develop and adopt a plan to meet and thereafter maintain the minimum risk-based capital
requirements for a Well Capitalized bank, in addition to other actions prescribed in the
C&D. Management developed a capital plan; however, the Tier 1 Capital ratio remained
below 10 percent as of the October 2009 examination and there were no firm prospects
for new capital.

During 2009, PCA notifications and directives included:

       August 26, 2009. The FDIC notified CRB that it was Undercapitalized, based on
        June 30, 2009 financial information. The bank was required to prepare a capital
        restoration plan by October 12, 2009. The FDIC received a capital restoration
        plan from the bank on October 16, 2009. Preliminary review of the submitted plan
        indicated that it was unacceptable and needed to be updated in order to more


                                                                                                      I-20
       accurately reflect CRB’s financial condition. CRB management was unsuccessful
       in submitting an amended plan due to the rapid deterioration of the bank.
      December 16, 2009. The FDIC notified CRB that it was Significantly
       Undercapitalized, based on the September 30, 2009 Call Report. The bank was
       required to prepare an updated capital restoration plan by January 15, 2010.
      December 21, 2009. Examiners provided CRB with the results of the
       October 2009 examination. As indicated in Table 3, the bank’s capital level fell to
       Critically Undercapitalized based on results of the October 2009 examination.
      December 23, 2009. The FDIC issued a PCA Directive to CRB, based on the fact
       that the capital restoration plan submitted to the FDIC on October 16, 2009 was
       unacceptable and did not adequately address the bank’s plan for the needed
       capital infusion.

In January 2010, the FDIC performed a credit visitation with the purpose of testing the
bank’s Tier 1 Capital Ratio. During the visitation, it was noted that the Tier 1 Capital
Ratio had dropped below 2 percent of assets. As a consequence, on January 22, 2010, the
DFCS closed CRB due to its low level of capital, and named the FDIC as receiver.




                                                                                      I-21
                                                                          Appendix 1

Appendices
                    Objectives, Scope, and Methodology

Objectives

We performed this performance audit to satisfy the requirements of section 38(k) of the
FDI Act as amended by the Financial Reform Act that was signed into law on
July 21, 2010. The Financial Reform Act amends section 38(k) of the FDI Act by
increasing the MLR threshold from $25 million to $200 million for losses that occur for
the period January 1, 2010 through December 31, 2011. Further, the Financial Reform
Act calls for the OIG to perform in-depth reviews of failures when the associated losses
are not material but they involve unusual circumstances. In-depth reviews are required to
be performed and reported in a manner consistent with that of an MLR.

At the time the Financial Reform Act was enacted, we had completed our fieldwork and
were in the process of preparing a draft MLR report. Although the estimated loss for
CRB no longer met the threshold requiring an MLR, the OIG decided to have us
complete the audit and issue this report as an in-depth review.

Consistent with the Financial Reform and FDI Act provisions described above, the
objectives of this review were to (1) determine the causes of CRB’s failure and the
resulting loss to the DIF and (2) evaluate the FDIC’s supervision of CRB, including the
FDIC’s implementation of the PCA provisions of section 38 of the FDI Act.

Scope and Methodology

The scope of this audit included an analysis of CRB from May 2006 until its failure on
January 22, 2010. Our review also entailed an evaluation of the regulatory supervision of
the institution over the same period.

To achieve the objectives, we performed the following procedures and utilized the
following techniques:

       Analyzed examination and visitation reports prepared by the FDIC and the DFCS
        examiners from May 2006 to January 2010.

       Reviewed the following documentation:

             Financial institution data and correspondence maintained at DSC’s San
              Francisco Regional Office and Portland Field Office, as provided to KPMG
              by DSC.

             Reports prepared by the Division of Resolutions and Receiverships and DSC
              relating to the bank’s closure.

             Pertinent DSC policies and procedures.


                                                                                     I-22
                                                                              Appendix 1


        Interviewed the relevant FDIC officials who had supervisory responsibilities
         pertaining to CRB, which included DSC examination staff in Oregon.

        Interviewed appropriate officials from the DFCS to discuss the historical
         perspective of the institution, its examinations, and other activities regarding the
         State's supervision of the bank.

        Researched various banking laws and regulations, including Oregon state laws.

KPMG relied primarily upon the materials provided by the FDIC OIG and DSC,
including information and other data collected during interviews. KPMG did not perform
specific audit procedures to ensure the information and data were complete and accurate.
KPMG is, however, aware that Circular 12000.1, Cooperation with the Office of
Inspector General, dated September 28, 2007, requires that all FDIC employees,
contractors, and subcontractors cooperate with the OIG in order for the OIG to carry out
its statutory mandate. To that end, all employees, contractors, and subcontractors must:

   (1) Provide authorized representatives of the OIG immediate and unrestricted access to
all Corporation, receivership, contractor, and subcontractor personnel, facilities,
equipment, hard copy and electronic records, files, information systems, and other
sources of information when requested during the course of their official duties.

  (2) Provide authorized representatives of the OIG immediate and unrestricted access to
any records or material available to any part of the FDIC.

Interviews were conducted to gain a better understanding of decisions made regarding the
supervisory approach to the institution and to clarify information and conclusions
contained in ROEs and other relevant supervisory correspondence between the FDIC and
the bank. KPMG relied on the information provided in the interviews without conducting
additional specific audit procedures to test such information.

Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, ROEs,
and interviews of examiners to understand CRB’s management controls pertaining to
causes of failure and loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including ROEs, correspondence files, and testimonial evidence to
corroborate data obtained from systems that were used to support our audit conclusions.




                                                                                          I-23
                                                                            Appendix 1

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this in-depth review, we did not assess the strengths and
weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in the OIG’s program audits of DSC
operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act and the FDIC’s Rules and Regulations.
The results of our tests are discussed, where appropriate, in this report. Additionally, we
assessed the risk of fraud and abuse related to our objectives in the course of evaluating
audit evidence.

Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum also indicated that the OIG
planned to provide more in-depth coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
MLR reports related to failures of FDIC-supervised institutions and these reports can be
found at www.fdicig.gov. In June 2010, the OIG initiated an audit, the objectives of
which are to (1) determine the actions that the FDIC has taken to enhance its supervision
program since May 2009, including those specifically in response to the May 2009
memorandum, and (2) identify trends and issues that have emerged from subsequent
MLRs.

In addition, with respect to more in-depth coverage of specific issues, in May 2010, the
OIG initiated an evaluation of the role and federal regulators’ use of the Prompt
Regulatory Action provisions of the FDI Act (section 38, Prompt Corrective Action, and
section 39, Standards for Safety and Soundness) in the banking crisis.




                                                                                        I-24
                                                                          Appendix 2


                          Glossary of Terms


          Term                                        Definition
Adversely Classified     Assets subject to criticism and/or comment in an examination
Assets                   report. Adversely classified assets are allocated on the basis of risk
                         (lowest to highest) into three categories: Substandard, Doubtful,
                         and Loss.

Allowance for Loan and   Federally insured depository institutions must maintain an ALLL
Lease Losses (ALLL)      that is adequate to absorb the estimated loan losses associated with
                         the loan and lease portfolio (including all binding commitments to
                         lend). To the extent not provided for in a separate liability account,
                         the ALLL should also be sufficient to absorb estimated loan losses
                         associated with off-balance sheet loan instruments such as standby
                         letters of credit.

Call Report              Consolidated Reports of Condition and Income (also known as the
                         Call Reports) are reports that are required to be filed by every
                         national bank, state member bank, and insured nonmember bank
                         pursuant to the Federal Deposit Insurance Act. These reports are
                         used to calculate deposit insurance assessments and monitor the
                         condition, performance, and risk profile of individual banks and
                         the banking industry.

Cease and Desist Order   A formal enforcement action issued by financial institution
(C&D)                    regulators to a bank or affiliated party to stop an unsafe or unsound
                         practice or violation. A C&D may be terminated by the regulators
                         when they have determined that the bank’s condition has
                         significantly improved and the action is no longer needed or the
                         bank has materially complied with its terms.

Concentration            A concentration is a significantly large volume of economically
                         related assets that an institution has advanced or committed to a
                         certain industry, person, entity, or affiliated group. These assets
                         may, in the aggregate, present a substantial risk to the safety and
                         soundness of the institution.
FDIC’s Supervision       The FDIC’s supervision program promotes the safety and
Program                  soundness of FDIC-supervised institutions, protects consumers’
                         rights, and promotes community investment initiatives by FDIC-
                         supervised institutions. The FDIC’s Division of Supervision and
                         Consumer Protection (1) performs examinations of FDIC-
                         supervised institutions to assess their overall financial condition,
                         management policies and practices (including internal control
                         systems), and compliance with applicable laws and regulations and
                         (2) issues related guidance to institutions and examiners.




                                                                                       I-25
                                                                       Appendix 2

         Term                                     Definition
Global Cash Flow     A global cash flow analysis is a comprehensive evaluation of
Analysis             borrower capacity to perform on a loan. During underwriting,
                     proper global cash flow must thoroughly analyze projected cash
                     flow and guarantor support. Beyond the individual loan, global
                     cash flow must consider all other relevant factors, including:
                     guarantor’s related debt at other financial institutions, future
                     economic conditions, as well as obtaining current and complete
                     operating statements of all related entities. In addition, global cash
                     flow analysis should be routinely conducted as a part of credit
                     administration. The extent and frequency of global cash flow
                     analysis should be commensurate to the amount of risk associated
                     with the particular loan.
Material Loss        As defined by section 38(k)(2)(B) of the FDI Act, and as amended
                     by the Dodd-Frank Wall Street Reform and Consumer Protection
                     Act, for the period beginning January 1, 2010 and ending
                     December 31, 2011, a material loss is defined as any estimated loss
                     in excess of $200 million.
Prompt Corrective    The purpose of PCA is to resolve the problems of insured
Action (PCA)         depository institutions at the least possible long-term cost to the
                     Deposit Insurance Fund. Part 325, subpart B, of the FDIC Rules
                     and Regulations, 12 Code of Federal Regulations, section 325.101,
                     et. seq., implements section 38, Prompt Corrective Action, of the
                     FDI Act, 12 United States Code Section 1831(o), by establishing a
                     framework for determining capital adequacy and taking
                     supervisory actions against depository institutions that are in an
                     unsafe or unsound condition. The following terms are used to
                     describe capital adequacy: (1) Well Capitalized, (2) Adequately
                     Capitalized, (3) Undercapitalized, (4) Significantly
                     Undercapitalized, and (5) Critically Undercapitalized.

                     A PCA Directive is a formal enforcement action seeking corrective
                     action or compliance with the PCA statute with respect to an
                     institution that falls within any of the three categories of
                     undercapitalized institutions.
Uniform Bank         The UBPR is an analysis of financial institution financial data and
Performance Report   ratios that includes extensive comparisons to peer group
(UBPR)               performance. The report is produced by the Federal Financial
                     Institutions Examination Council for the use of banking
                     supervisors, bankers, and the general public and is produced
                     quarterly from Call Report data submitted by banks.




                                                                                    I-26
                                                                      Appendix 2

          Term                                     Definition
Uniform Financial     Financial institution regulators and examiners use the Uniform
Institutions Rating   Financial Institutions Rating System to evaluate a bank’s
System (UFIRS)        performance in six components represented by the CAMELS
                      acronym: Capital adequacy, Asset quality, Management practices,
                      Earnings performance, Liquidity position, and Sensitivity to
                      market risk. Each component, and an overall composite score, is
                      assigned a rating of 1 through 5, with 1 having the least regulatory
                      concern and 5 having the greatest concern.




                                                                                   I-27
                                                                           Appendix 3


                                       Acronyms


ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
ASC      Accounting Standard Codification
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity to Market
         Risk
CCO      Chief Credit Officer
CD       Certificate of Deposit
CRB      Columbia River Bank
CRE      Commercial Real Estate
DFCS     Division of Finance and Corporate Securities
DIF      Deposit Insurance Fund
DSC      Division of Supervision and Consumer Protection
FAS      Financial Accounting Standard
FDI      Federal Deposit Insurance
FHLB     Federal Home Loan Bank
GAGAS    General Government Auditing Standards
GMS      Growth Monitoring System
MLR      Material Loss Review
MOU      Memorandum of Understanding
NIM      Net Interest Margin
OIG      Office of Inspector General
OREO     Other Real Estate Owned
ORL      Offsite Review List
PCA      Prompt Corrective Action
REST     Real Estate Stress Test
ROAA     Return on Average Assets
ROE      Report of Examination
SCOR     Statistical CAMELS Offsite Rating
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System




                                                                                       I-28
               Part II

OIG Evaluation of Management Response
OIG Evaluation of Management Response
On August 18, 2010, the Director, Division of Supervision and Consumer Protection
(DSC), provided a written response to the draft report. That response is provided in its
entirety on page II-2 of this report.

DSC reiterated the OIG’s conclusions regarding the causes of CRB’s failure and the
FDIC’s supervision of the bank. With regard to the FDIC’s supervision of CRB, DSC
summarized the supervisory history described in the report. Further DSC stated that
strong supervisory attention is necessary for institutions with high CRE and ADC
concentrations, such as CRB, and has issued updated guidance reminding examiners to
take appropriate action when those risks are imprudently managed.




                                                                                       II-1
                               CORPORATION COMMENTS



Federal Deposit Insurance Corporation
  550 17th Street NW, Washington, D.C. 20429-9990                Division of Supervision and Consumer Protection

                                                                         August 18, 2010
TO:              Stephen Beard
                 Assistant Inspector General for Material Loss Reviews

                 /Signed/
FROM:            Sandra L. Thompson
                 Director

SUBJECT:         FDIC Response to the Draft Audit Report Entitled, Material Loss Review of The
                 Columbia River Bank, The Dalles, Oregon (Assignment No. 2010-035)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted a material loss review of The
Columbia River Bank, The Dalles, Oregon (CRB), which failed on January 22, 2010. This
memorandum is the response of the Division of Supervision and Consumer Protection (DSC) to
the OIG’s Draft Report (Report) received on July 29, 2010.

The decision of CRB’s Board and management to pursue a loan growth strategy concentrating in
commercial real estate (CRE) and acquisition, development, and construction (ADC) loans was
the principal factor which led to its rapid deteriorating financial condition and failure. CRB’s
overall weak loan administration contributed to the increased delinquencies and non-performing
assets. Additionally, at the time of the economic downturn, CRB’s Board made an ill-timed
decision to aggressively expand into a new geographic market area, Vancouver, Washington,
which also experienced a downturn in its real estate market.

From 2005 through December 2009, the FDIC and the Oregon Division of Finance and
Corporate Securities (DFCS) jointly and separately conducted four full-scope examinations and
one joint visitation. At the August 2008 FDIC examination, CRB’s loan assets had deteriorated
to a level that raised significant regulatory concern and posed considerable risk, resulting in the
FDIC implementing a formal enforcement action. At the October 2009 joint examination,
capital was rated critically deficient, and CRB was assigned a composite “5” rating. CRB was
unable to raise additional capital, and was ultimately closed by the DFCS due to deteriorating
asset quality, poor earnings, and inadequate capital.

DSC recognizes that strong supervisory attention is necessary for institutions with high
CRE/ADC concentrations, such as CRB, and has issued updated guidance reminding examiners
to take appropriate action when those risks are imprudently managed.

Thank you for the opportunity to review and comment on the Report.




                                                                                                    II -2
